Attorneys for Petitioner
Joseph Gary Samuel Greenlee
Counsel of Record

Firearms Policy Coalition
1215 K Street, 17th Floor
Sacramento, CA 95814

916-378-5785

jgr@fpchq.org
Party name: Raymond Holloway, Jr.
Attorneys for Respondents
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: Jeffrey A. Rosen, Acting Attorney General, et al.

202-514-2217

